HHS/OIG, Audit -"Review of Aid to Families With Dependent Children Overpayment Recoveries By the State of New York Collected By Chemung, Erie, Monroe, Nassau, and Suffolk Counties,"(A-02-02-02001)
Department
of Health and Human Services
"Review of Aid to Families With Dependent Children Overpayment Recoveries By the State of New York Collected By
Chemung, Erie, Monroe, Nassau, and Suffolk Counties," (A-02-02-02001)
January 31, 2003
Complete
Text of Report is available in PDF format (1.6 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require states to pursue Aid to Families with Dependent Children overpayments made prior to October
1, 1996, and make appropriate refunds to the Federal Government.  This final report points out that for certain counties
in New York the state had not made such refunds for overpayments collected (approximately $1.8 million federal share) during
the period December 1, 1996 through April 30, 2002.  State officials concurred with our recommendation that the state
refund the $1.8 million the Federal Government.